Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing ServicesGrant to the York, Pennsylvania Police Department
GR-70-00-012March 16, 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the York, Pennsylvania Police Department (York).  The purpose of the grants is to enhance community policing.  York was awarded a total of $923,246 to hire 12 new police officers and redeploy the equivalent of 1.3 existing full-time officers from administrative duties to community policing.
	
We reviewed York's compliance with eight essential grant conditions.  We found the grantee's budgeting and community policing practices to be acceptable.  We found weaknesses in six other areas as identified below.  As a result, we question $295,474 in grant costs and recommend that $13,532 be put to better use.1

York did not comply with the grant's nonsupplanting requirement because it hired 4 of the 12 COPS-funded officers before the grant award or supplemental start date. 
	The grantee's local match requirement was not fully met because York did not maintain records to document the source or amount of its local match.
	Grantee reimbursement requests were not adequately supported.  
	York did not have an acceptable plan for retaining the 12 officers funded under the hiring grants.
	York did not have a plan to track redeployment resulting from purchases       made under the MORE 96 grant.    
	York failed to submit a progress report.  Some status reports were untimely and inaccurate. 

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.





Footnote
1. The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and definitions of questioned costs and funds to better use.